E
Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:

contact@cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 19-291
ANNE K. BLOCK,
Petitioner,
V.

WSBA, et al.,
Respondents.
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of November, 2019, send
out from Omaha, NE 6 package(s) containing 3 copies of the RESPONDENTS JOE BEAVERS, LINDA LOEN, CRYSTAL
HILL-PENNINGTON, PORT OF SEATTLE, KALI MATUSKA, JULIA TANGA, SEAN GILLEBO, JAMES TUTTLE,
KENYON DISEND, MICHAEL KENYON, ANN MARIE SOTO, SANDRA SULLIVAN, AND MARGARET KING'S
JOINT BRIEF IN OPPOSITION in the above entitled case. All parties required to be served have been served by Priority
Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
MICHAEL R. KENYON
ANN MARIE SOTO
KENYON DISEND, PLLC
11 Front Street South
Issaquah, WA 98104
(425) 392-7090
Mike@KenyonDisend.com
AnnMarie@KenyonDisend.com

AMANDA G. BUTLER
Counsel of Record
KEATING, BUCKLIN
& MCCORMACK, INC., P.S.
801 Second Avenue,
Suite 1210
Seattle, WA 98104
(206) 623-8861
abutler@kbmlawyers.com

Attorneys for Kenyon Disend,
PLLC, Michael Kenyon,
Ann Marie Soto, Sandra
Sullivan and Margaret King

Attorneys for Joe Beavers,
Linda Loen, Crystal
Hill-Pennington, Port of
Seattle, Kali Matuska,
Julia Tanga, Sean
Gillebo,and James Tuttle

Subscribed and sworn to before me this 4th day ofNovember, 2019.
I am duly authorized under the laws of the State ofNebraska to administer oaths.

PATRICIA BILLOTTE

General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

Notary Public

Affiant

38900

Petitioner Pro Se
Anne Block
115 West Main Street, #204
Monroe, WA 98272
T: (206) 326-9933
Email: Anne.K.Block@corncast.net
Attorneys for Defendants Seth Fine, G. Geoffrey Gibbs, Snohomish County, John Pennington,
Mark Roe, Sean Reay, Sara DiVittorio, John Lovick and Brian Lewis
Steven Joseph Bladek
Snohomish County Prosecuting Attorney
Civil Division
3000 Rockefeller Avenue, M/S 504
Robert Drewel Building, 8th Floor
Everett, WA 9820 l
T: (425) 388-6330
Email: sbladek@snoco.org
Attorneys for City of Duvall and Lori Batiot
Robert L. Christie
Christie Law Group, PLLC
2100 Westlake Ave. N., #206
Seattle, WA 98109
T: (206) 957-9669
Email: bob@christielawgroup.com
Attorneys for Defendants Ron Fejfar and Sky Valley Media Group, LLC
Brian C. Dale
Deno Millikan Law Firm, PLLC
3411 Colby Ave.
Everett, WA 98201
T: (425) 259-2222
Email: briandale@denornillikan. corn
Attorneys for Defendants King County and Deputy Coblantz
Geoffrey M. Grindeland
Searnark Law Group PLLC
400 Winslow Way E., Ste. 230
Bainbridge Island, WA 98110
T: (206) 502-2511
Email: geoff@seamarklaw.com

1

Attorneys for WSBA, Sarah Andeed, Kevin Bank, Kathryn Berger, Keith Mason Black, Stephanie
Bloomfield, Michele Nina Camey, S. Nia Renei Cottrell, William Earl Davis, Stephania Camp
Denton, Linda Eide, Douglas Ende, Marcia Lynn Damerow Fischer, William McGillin, Michael
Jon Myers, Joseph Nappi, Jr., Linda O'Dell, Allison Sato, Rondla Schaps, Julie Shankland, Marc
Silverman and Todd R. Startzel
David W. Silke
Shannon Wodnik
Gordon Rees Scully Mansukhani, LLP
701 5th Ave., #2100
Seattle, WA 98104
T: (206) 695-5100
Email: dsilke@grsm.com
swodnik@grsm.com

2

